30

IN THE
SUPREME COURT OF THE UNITED STATES

XIAOHUA HUANG PRO SE
Petitioner,
V.
HUAWEI TECHNOLOGY LTD.
Respondents.
Proof of Service
I, Xiaohua Huang, hereby certify that on this 15th day of October, 2020,
I caused “petition for a writ of certiorari” with USPS priority mail and
email to Defendant Huawei at the following address:
E. Leon CarterE. Leon Carter
CARTER ARNETT,PLLC
8150 N. Central Expressway5th Floor
Dallas, Texas 75206
Telephone No. (214) 550-8160
Email: knewsome@carterarnett.com

I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 15,2020
Xiaohua Huang

